OIG Investigative Reports, Former FAMU Director Sentenced to Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
US Department of Justice
Thomas F. Kirwin
Acting United States Attorney
Northern District of Florida
Please reply to:  Tallahassee
PRESS RELEASE
October 16, 2008
FORMER FAMU DIRECTOR SENTENCED TO FEDERAL PRISON
TALLAHASSEE -- Thomas F. Kirwin, Acting United States Attorney for the Northern District
of Florida, announced today that the former director of the Institute on Urban Policy and
Commerce (Institute) at the Florida Agricultural and Mechanical University (FAMU) was
sentenced to 46 months in federal prison based upon her conviction on conspiracy and theft from
Federal programs charges.
United States District Judge Richard Smoak, in Panama City, Florida, sentenced Patricia
Walker McGill , age 60, of Tallahassee, Florida, to 46 months in federal prison on her
convictions on one count of conspiracy to commit theft from Federal programs and seven counts
of theft from Federal programs relating to educational grants. The defendant was also ordered to
serve a period of three years' supervised release following her release from prison. In sentencing
the defendant, the Court found that the defendant exercised a leadership role in the criminal
activity and abused her position of trust with respect to the grants. The Court also ordered
defendant McGill to pay $800 in special assessments to the United States and to make restitution
in the amount of $212,461.21 to the Florida Department of Education. McGill was ordered to
surrender to commence serving her sentence on December 1, 2008 at 12:00 noon.
Defendant McGill pled guilty to the eight charges on June 18, 2008, after two days of trial, and
after a jury had heard testimony from 21 witnesses and received 255 exhibits in evidence. The
testimony at trial indicated that McGill stole funds provided by the United States Department of
Education through the Florida Department of Education for educational literacy grants provided
to FAMU for Calhoun, Franklin, Gadsden, Gulf, Union and Washington counties. She used
these literacy grant monies to pay individuals and entities for goods and services not related to or
authorized by the educational grants. She also fraudulently took grant monies from the 21st
Century educational grant in Franklin County, claiming these monies as payment for drafting and
submitting the grant application, despite being advised that no grant monies could be expended
for this purpose. McGill used educational grant monies in Calhoun and Franklin Counties to pay
Institute and State of Florida employees for work unrelated to the educational grants, including
overtime and bonuses. McGill also required certain educational grant recipients to kick back
portions of the grant monies to her and to disguise these monies as “consulting” fees for the
grants. McGill also required the grant recipients to falsely report that the grant monies were
earned for work related to the grants. To conceal the fraud, McGill caused fraudulent invoices to
be submitted to grant recipients.
This successful prosecution is the result of a three year investigation by the Federal Bureau of
Investigation, the Office of Inspector General for the United States Department of Education, and
the State of Florida Department of Financial Services. Acting United States Attorney Kirwin
commended the tireless efforts of investigators of the agencies involved in this complex
investigation. Mr. Kirwin stated that, “the theft of federal program funds by individuals
entrusted with the administration and legitimate distribution of those funds is a grave abuse of
the public trust and a betrayal of the citizens who depend on these funds. This office, along with
the Federal Bureau of Investigation, the Inspector General for the Department of Education, and
the Florida Department of Financial Services, will vigorously investigate and identify those
individuals who steal and divert educational grant monies from the intended recipients.”
Special Agent In Charge James Casey, Federal Bureau of Investigation, Jacksonville Division,
stated, “We would like to express our appreciation for the partnership of the United States
Attorney’s Office and the United States Department of Education, Office of Inspector General,
both of whom, worked tirelessly with us to bring this case to a successful conclusion. The FBI
will continue to vigorously pursue investigation of individuals who violate the public trust.”
Mr. Jerry Bridges, Acting Inspector General of the U.S. Department of Education, stated, “ I
want to commend the efforts of our special agents, the FBI, and the U.S. Attorney’s Office to
hold these individuals accountable for their fraudulent activity. The misappropriation of federal
education and literacy dollars by this defendant took vital program funds away from those, who
relied on these programs to further their education, and that is unacceptable.”
Top
Printable view
Share this page
Last Modified: 10/20/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov